                              Closeout for M97100030
    On October 7, 1997, OIG received a letter from the subject1 in which she
disclosed that she had received a request for data that she had not fulfilled, and she
wanted to explain why. She said some of the data was collected under NSF
awards,2 and that she had spoken with a n NSF program manager3 who had advised
her to contact OIG. The subject enclosed copies of e-mail requests for the data from
the complainants.4 The complainants asked for some specific data that had
appeared in a recent publication. The complainants indicated that when they
attempted to obtain the data from a repository maintained by a professional society,
only some of the data used in the publication were there, and they would like some
of the data that had not been reposited yet. In her letter to OIG, the subject wrote
that she had been collecting these data for several years, she was continuing to use
the data in her research, and she planned to deposit the data as soon as her
upcoming manuscript was accepted for publication.
   OIG contacted the program manager who said the complainant was a fast-
moving researcher who tended to publish his results rather quickly. The program
manager also said the subject did good work a s well, but did not publish a s rapidly
and tended to take her time collecting and publishing data.
    OIG contacted the subject who explained that she was working on a manuscript
for a special edition of a journal and wanted to preserve the uniqueness of her
manuscript, for herself a s well a s the journal. She indicated that she had been
unaware of NSF's policy of encouraging researchers to share data. She said that
even though the data had been published in a figure, it was not raw data, but
instead was fitted with a n algorithm that had been explained in the text. She said
she would provide the raw data to a society repository as soon a s her manuscript
was accepted for publication. OIG suggested that she should inform the
complainant of her reasons and work out a suitable arrangement for the sharing of
data.
   After the subject notified the complainant of her proposed plan, OIG contacted
the complainant to see if it was acceptable. He indicated that he had wanted to use
the data in a forthcoming publication because it was related to his research. He
thought that since the subject had already published the data, it should not have ,
been a problem to share it. However, he had digitized the data from the figure and
used that. Since he was moving on to a different topic now, he did not object to the
subject's plan to make the data public after the manuscript had been accepted.
   This inquiry is closed and no further action will be taken on this case.


   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 (footnote redacted).




                                     Page 1of 2
                               Closeout for M97100030




cc: Legal, AIG-Oversight, IG




                                    Page 2 of 2
